                             Office of Inspector General
                            Corporation for National and
                                     Community Service




              AUDIT OF THE
     CORPORATION FOR NATIONAL AND
          COMMUNITY SERVICE’S
            FISCAL YEAR 2013
      NATIONAL SERVICE TRUST FUND
         FINANCIAL STATEMENTS

                OIG REPORT 14-02




                     Prepared by:

               Kearney & Company, P.C.
              1701 Duke Street, Suite 500
               Alexandria, Virginia 22314




This report was issued to Corporation management on December 16, 2013.
                                        December 16, 2013


TO:           Wendy Spencer
              Chief Executive Officer

FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit

SUBJECT:      Audit of the Corporation for National and Community Service’s
              Fiscal Year 2013 National Service Trust Fund Financial Statements,
              OIG Report 14-02

We contracted with the independent certified public accounting firm of Kearney & Company,
P.C. (Kearney) to audit the Corporation for National and Community Service’s (Corporation)
National Service Trust Fund financial statements (Trust financial statements) as of September
30, 2013 and 2012, and for the years then ended. The contract required that the audit be
performed in accordance with the Government Auditing Standards.

In its audit, Kearney found that the Trust financial statements present fairly, in all material
respects, in accordance with accounting principles generally accepted in the United States of
America.

Kearney is responsible for the attached independent auditor’s report, dated December 16, 2013,
and the conclusions expressed therein. The Office of Inspector General does not express an
opinion on the Trust financial statements.

Attachment

cc:     Asim Mishra, Chief of Staff
        Kim Mansaray, Acting Chief Operating Officer
        David Rebich, Chief Financial Officer
        Philip Clark, Chief Information Officer
        Rocco Gaudio, Deputy CFO for Grants and Field Financial Management Center
        Douglas Hilton, Director, Office of Accountability and Oversight
        David Zavada, Engagement Partner, Kearney & Company, P.C.




                  1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                     202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov
                                                          1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                          PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com


                           INDEPENDENT AUDITOR’S REPORT

To the Board of Directors and Inspector General of the Corporation for National and Community
Service


Report on the Trust Financial Statements

We have audited the accompanying financial statements of the Corporation for National and
Community Service (the Corporation) National Service Trust Fund (Trust), which comprise the
statements of financial position as of September 30, 2013 and 2012, the related statements of
operations and changes in net position, the statements of cash flows, and the combined
statements of budgetary resources (SBR) (hereinafter referred to as the “Trust financial
statements”) for the years then ended, and the related notes to the Trust financial statements.

Management’s Responsibility for the Trust Financial Statements

Management is responsible for the preparation and fair presentation of the Trust financial
statements in accordance with accounting principles generally accepted in the United States of
America. This includes the design, implementation, and maintenance of internal control relevant
to the preparation and fair presentation of financial statements that are free from material
misstatement, whether due to fraud or error.

Auditor’s Responsibility

Our responsibility is to express an opinion on the Trust financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 14-02, Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the Trust financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the Trust financial statements. The procedures selected depend on the auditor’s
judgment, including the assessment of the risks of material misstatement of the Trust financial
statements, whether due to fraud or error. In making those risk assessments, the auditor
considers internal control relevant to the entity’s preparation and fair presentation of the Trust
financial statements in order to design audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting
estimates made by management, as well as evaluating the overall presentation of the Trust
financial statements.



                                                 1
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion

In our opinion, the Trust financial statements referred to above present fairly, in all material
respects, the financial position of the Trust as of September 30, 2013 and 2012, and its net cost
of operations, changes in net position, cash flows, and budgetary resources for the years then
ended, in accordance with accounting principles generally accepted in the United States of
America.

Emphasis of Matters

As discussed in Note 1 to the Trust financial statements, the Corporation changed its basis of
accounting from a regulatory basis, as prescribed by the National and Community Service Act of
1990 (NCSA) (Public Law 101-610), as amended, to accounting principles generally accepted in
the United States of America. In accordance with this change, the Corporation presented a
Statement of Cash Flows and SBR, and the related note disclosures for the periods ending
September 30, 2013 and 2012. The addition of these financial statements had no effect on the
previously reported schedule of Trust obligations and Trust budgetary resources, which have
been moved to the National Service Trust Fund Status Report – September 2013, Other
Information section of the fiscal year 2013 Agency Financial Report in conformity with the
requirements of generally accepted accounting principles.

A 2004 Executive Order, entitled “National and Community Service Programs” (E.O. 13331),
requires a statement of assurance in the Corporation’s Management Representation Letter by the
Chief Executive Officer and Chief Financial Officer that its financial statements, including the
SBR, are accurate and reliable. The Corporation has interpreted this requirement to include
presenting the SBR as a principal financial statement. The Corporation’s SBR is prepared in
accordance with accounting principles generally accepted in the United States of America.

Our opinion is not modified with respect to these matters.

Other Matters

Other Information

Our audits were conducted for the purpose of forming an opinion on the Trust financial
statements taken as a whole. The information contained in the National Service Trust Fund
Status Report – September 2013, Other Information, section of the fiscal year 2013 Agency
Financial Report is presented for purposes of additional analysis and is not a required part of the
Trust financial statements. Such information has not been subjected to the auditing procedures




                                                 2
applied in the audits of the Trust financial statements, and accordingly, we do not express an
opinion or provide any assurance on it.




Alexandria, Virginia
December 16, 2013




                                                3
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
         NATIONAL SERVICE TRUST FUND

              FISCAL YEAR 2013 AND 2012
                FINANCIAL STATEMENTS


(Extracted From Fiscal Year 2013 Agency Financial Report)
The Corporation for National and Community Service




Corporation for National and Community Service
National Service Trust Statements of Financial Position as of September 30
(dollars in thousands)

	                                                                                        2013	2012

Assets
Fund Balance with Treasury (Note 2)	                                           $	         611	                  $	     4,951
Investments, Net (Note 3)		                                                           692,243		                      637,507
Interest Receivable		                                                                     922		                        1,058
Accounts Receivable, Net (Note 4)		                                                       234		                         251	

Total Assets	                                                                  $	     694,010	                  $	   643,767


Liabilities		
Service Award Liability (Note 5)		                                                    464,274		                      447,191


Net Position		
Cumulative Results of Operations (Note 6)		                                           229,736		                      196,576


Total Liabilities and Net Position	                                            $	     694,010	                  $	   643,767




                                   The accompanying notes are an integral part of these financial statements.




Other Information | PART IV	                                                                                                   88
The Corporation for National and Community Service




Corporation for National and Community Service
National Service Trust Statements of Operations and Changes in Net Position
for the Periods Ended September 30 (dollars in thousands)

	                                                                                        2013	2012

Revenues
Appropriations (Note 7)	                                                       $	    200,719	                         $	   207,561
Transfer in of Program Funds		                                                         22,849		                              4,355
Interest		3,133		 4,434
Other Revenue	                                                                  	       6,054		                              2,686

Total Revenues	                                                                $	     232,755	                        $	   219,036


Expenses		
Service Award Expense		                                                              199,568		                             218,423
Write off/Recovery of Receivables		                                                        27		                               441
Total Expenses (Note 8)	                                                       $	     199,595	                        $	   218,864

Excess of Revenues Over Expenses	                                              $	      33,160	                        $	       172


Net Position		
Excess of Revenues Over Expenses		                                                     33,160		                               172
Net Position, Beginning of Year		                                                    196,576		                             196,404

Net Position, End of Year	                                                     $	    229,736	                         $	   196,576




                                         The accompanying notes are an integral part of these financial statements.




Other Information | PART IV	                                                                                                         89
The Corporation for National and Community Service




Corporation for National and Community Service
National Service Trust Statements of Cash Flows
for the Periods Ended September 30 (dollars in thousands)

  CASH FLOWS FROM OPERATING ACTIVITIES                                                              2013                      2012

  Net of Revenue over Expenses                                                           $         33,160             $        172

  Adjustments Affecting Cash Flow:
     Amortization of Premium/Discount on Investments                                                1,795                   (2,811)
     Appropriations Received in Trust                                                           (223,568)                 (211,916)
     Decrease/(Increase) in Accounts Receivable                                                        18                      393
     Decrease/(Increase) in Interest Receivable                                                       136                      385
     Increase/(Decrease) in Trust Liability                                                        17,083                   36,930

  Total Adjustments                                                                             (204,536)                 (177,019)
  Net Cash Provided/(Used) by Operating Activities                                              (171,376)                 (176,847)

  CASH FLOWS FROM INVESTING ACTIVITIES

  Purchase of Assets                                                                             729,799                   831,264
  Purchase of Securities                                                                        (786,331)                 (861,743)

  Net Cash Provided/(Used) in Investing Activities                                               (56,532)                  (30,479)

  CASH FLOWS FROM FINANCING ACTIVITIES

  Appropriations Received in Trust                                                               223,568                   211,916

  Net Cash Provided by Financing Activities                                                      223,568                   211,916

  Net Increase/(Decrease) in Fund Balance with Treasury		                                         (4,340)                    4,590

  Fund Balance with Treasury, Beginning                                                             4,951                      361

  Fund Balance with Treasury, Ending                                                     $            611             $      4,951




                                         The accompanying notes are an integral part of these financial statements.




Other Information | PART IV	                                                                                                          90
The Corporation for National and Community Service




Corporation for National and Community Service
National Service Trust Statements of Budgetary Resources
for the Periods Ended September 30 (dollars in thousands)

BUDGETARY RESOURCES		                                                                                 2013	                  2012


Unobligated balance, brought forward, October 1	                                          $	        76,053	           $	    61,024
Budget authority:				
Appropriations (discretionary and mandatory)		 224,863		                                                                   215,772
Spending authority from offsetting collections:				
Spending Authority from offsetting collections (total)		 6,054		                                                             2,686

Total budgetary resources	                                                                $	       306,970	           $	   279,482

STATUS OF BUDGETARY RESOURCES					

Obligations incurred	
Obligations incurred (total)	                                                               	      210,150		               203,428

Unobligated balance					
Apportioned		         46,623		 25,857
Unobligated balance not available	                                                          	       50,197		                50,197
Total unobligated balance, end of year		                                                            96,820		                76,054

Total budgetary resources	                                                                $	       306,970	           $	   279,482

				(Continued)	




                                         The accompanying notes are an integral part of these financial statements.




Other Information | PART IV	                                                                                                         91
The Corporation for National and Community Service



				(Continued)	



Corporation for National and Community Service
National Service Trust Statements of Budgetary Resources
for the Periods Ended September 30 (dollars in thousands)

CHANGE IN OBLIGATED BALANCE	                                                                          2013	2012


Unpaid obligations:
Unpaid obligations, brought forward, October 1	 $	                                                 564,476	 $	               542,589
Obligations incurred		                                                                             210,150		                 203,428
Outlays (gross) (-)		                                                                            (182,495)		               (181,541)
Unpaid Obligations, end of year 	                                                         $	      592,131	            $	    564,476

Memorandum entries:
Obligated balance, start of year	                                                         $	      564,476	            $	    542,589

Obligated balance, end of year	                                                           $	      592,131	            $	    564,476



Budget Authority and Outlays, Net					

Budget authority, gross (discretionary and mandatory)	                                    $	      230,917	            $	    218,458
Change in uncollected customer payments from federal sources		                                     (6,054)		                 (2,686)
Budget authority, net (discretionary and mandatory)	          $	                                  224,863	  $	              215,772

Outlay, gross (discretionary and mandatory)		                                                     182,495		                 181,541
Actual offsetting collections		                                                                    (6,054) 		                (2,686)
Outlays, net (discretionary and mandatory)	 $	                                                     176,441	  $	              178,855
Distributed offsetting receipts		                                                                (223,568) 		              (211,916)

Agency Outlays, net (discretionary and mandatory)	                                        $	      (47,127)	           $	    (33,061)




                                         The accompanying notes are an integral part of these financial statements.




Other Information | PART IV	                                                                                                           92
The Corporation for National and Community Service



NOTE 1—Summary of Significant Accounting Policies                           Corporation Control Act (GCCA). As required by GCCA, the principal
                                                                            financial statements of CNCS are the:
                                                                              • S tatement of Financial Position, which reports the status of
A. REPORTING ENTITY                                                             Corporation assets, liabilities, and net position;
The National Service Trust Fund (the Trust) was established by the
                                                                              • S tatement of Operations and Changes in Net Position, which reports
National and Community Service Trust Act of 1993 (The Act), 42 USC
                                                                                CNCS’ revenues and expenses for the year and the changes in net
12601, et seq. to provide funds for Segal AmeriCorps Education Awards
                                                                                position that occurred during the year; and
for eligible participants who complete AmeriCorps service.
                                                                              • S tatement of Cash Flows, which shows how changes in CNCS’
The activities of the Trust are funded primarily through the annual             financial position and results affected its cash (Fund Balance with
Departments of Labor, Health and Human Services, Education and Related          Treasury), and breaks the analysis down according to operating,
Agencies Appropriations Act, which funds National and Community                 investing, and financing activities.
Service Act programs. Appropriations are provided on a no-year basis for    The financial statements are presented in accordance with the accounting
the Trust, a fund within the Corporation used to provide education awards   principles generally accepted in the United States of America (GAAP), as
and student loan interest forbearance to eligible participants. Trust       applicable to federal government corporations. The Federal Accounting
appropriations do not expire with the passage of time and are retained by   Standards Advisory Board (FASAB) is the standard setting body for the
the Corporation in the Trust until used for eligible purposes.              federal government. Statement of Federal Financial Accounting Standards
                                                                            Number 34 (SFFAS 34) provides that financial statements prepared
The Trust provides awards for AmeriCorps members serving in approved
                                                                            by certain government corporations in conformity with the accounting
national service positions under AmeriCorps State and National,
                                                                            standard issued by the Financial Accounting Standards Board (FASB)
AmeriCorps NCCC, and AmeriCorps VISTA, as well as for the AmeriCorps
                                                                            are regarded as being in conformity with GAAP. As provided by SFFAS
Education Award Program, where sponsoring organizations are responsible
                                                                            34, where there is no standard issued by FASB applicable to the federal
for providing member subsistence and other costs, and the Corporation
                                                                            corporation the financial statements are presented in accordance with the
provides an education award and a small amount for administrative costs.
                                                                            accounting standards issued by FASAB.
Programs have up to two years after award to enroll members in positions.
                                                                            In addition, under Executive Order 13331, National and Community
Funds from the Trust may be expended for the purpose of providing an
                                                                            Service Programs, CNCS must prepare a Combined Statement of
education award or student loan interest forbearance payment and must
                                                                            Budgetary Resources as a principal statement. The accompanying
always be paid directly to a qualified institution (college, university,
                                                                            Combined Statements of Budgetary Resources have been prepared in
or other approved educational institution, or a lending institution
                                                                            accordance with GAAP, as prescribed by FASAB. The Combined Statement
holding an existing student loan) as designated by the participant.
                                                                            of Budgetary Resources presents additional details to include activity that
The Trust may also expend funds for payments under the President’s
                                                                            is significant to the CNCS.
Freedom Scholarship Program as authorized under various Corporation
appropriations through fiscal 2006.                                         CNCS’ consolidation policy requires the consolidation of all funds
                                                                            administered by CNCS, as delineated in Note 1A – Reporting Entity.
B. BASIS OF ACCOUNTING
The Statements of Financial Position; Operations and Changes in Net         D. BUDGETS AND BUDGETARY ACCOUNTING
Position, Cash Flows and Budgetary Resources have been prepared from        The activities of the National Service Trust Fund are primarily funded
the books and records of CNCS in accordance with Generally Accepted         through the annual Departments of Labor, Health and Human Services,
Accounting Principles (GAAP) as required by the Government Corporation      Education and Related Agencies Appropriation Act. CNCS’ accounting
Control Act (Act) and Executive Order 13331, National and Community         structure reflects both accrual and budgetary accounting transactions.
Service Programs.                                                           Under the accrual method of accounting, revenues are recognized when
                                                                            earned and expenses are recognized when incurred, without regard to
C. FINANCIAL STATEMENT PRESENTATION AND
                                                                            the actual collection or payment of cash. Federal budgetary accounting
CONSOLIDATION POLICY
                                                                            recognizes the obligation of appropriations and other funds upon the
The accompanying financial statements report CNCS’ financial position,
                                                                            establishment of a properly documented legal liability, which, in many
results of operations, and cash flows, as required by the Government




Other Information | PART IV	                                                                                                                          93
The Corporation for National and Community Service



cases, is different from the recording of an accrual-based transaction.        J. TRUST SERVICE AWARD LIABILITY
The recognition of budgetary accounting transactions is essential for          The Trust Service Award Liability represents unpaid earned, and
compliance with legal controls over the use of federal funds.                  expected to be earned, education awards and eligible student loan
                                                                               interest forbearance costs expected to be used. These amounts relate to
E. ASSET AND LIABILITY VALUATION                                               participants who have completed service or are currently enrolled
CNCS values its investments at carrying value and discloses fair value.        in the program and are expected to earn an award, based on CNCS’
As of September 30, 2013, the carrying amounts of Fund Balance                 historical experience.
with Treasury, Accounts Receivable, Accrued Interest Receivable, and
Liabilities approximate their fair value.                                      K. ACCOUNTS PAYABLE
                                                                               CNCS records as liabilities all amounts that are likely to be paid as a
F. FUND BALANCE WITH TREASURY                                                  direct result of a transaction or event that has already occurred. Accounts
CNCS considers Fund Balance with Treasury (FBWT) to represent cash             payable represents amounts due to external entities for goods and
and cash equivalents. It is CNCS’ cash accounts with the Department            services received by CNCS, but not paid for at the end of the fiscal year.
of the Treasury (the Treasury). The Treasury processes cash receipts
and disbursements on behalf of CNCS and CNCS’ accounting records               L. NET POSITION
are reconciled with those of the Treasury on a regular basis. The FBWT         Net Position represents Net Assets and is comprised of cumulative
maintained in the National Service Trust is restricted to specific purposes,   results of operations. Cumulative results of operations represent the net
such as paying service awards earned by eligible participants, and is not      differences between revenues and expenses from the inception of CNCS.
available for use in the current operations of CNCS.
                                                                               M. REVENUE RECOGNITION
G. INVESTMENTS AND RELATED RECEIVABLES                                         Appropriations received for CNCS’ Trust are recognized as revenue when
By law, CNCS may invest the funds of the National Service Trust in             received in the Trust Fund. Trust appropriations do not expire with the
interest-bearing Treasury securities guaranteed by the United States           passage of time and are retained by CNCS in the Trust until used for
as to principal and interest. These Treasury securities are referred to        eligible education service award purposes.
as “market-based,” since they mirror actual Treasury securities sold on
                                                                               Transfer in of Program Funds. Transfers in of program funds are
the open market. They consist of Treasury notes, bonds, bills and
                                                                               recognized as revenue when funds are transferred from subtitle C
one-day certificates.
                                                                               pursuant to 42 USC 1260.
Since they are expected to be held-to-maturity, CNCS’ investments
                                                                               Interest on Investments. Interest income is recognized when earned.
are valued at cost and adjusted for the amortization of premiums and
                                                                               Treasury notes and bonds pay interest semi-annually, based on the stated
discounts. The premiums and discounts are recognized as adjustments to
                                                                               rate of interest. Interest on Treasury bills is paid at maturity. Interest
interest income, using the effective interest method. Interest receivable
                                                                               income is adjusted by amortization of premiums and discounts using the
represents amounts earned, but not received on investments held at
                                                                               effective interest method.
year-end. Prepaid interest is the amount of interest earned on a security
since the date of its last interest payment, up to the date the security is    Other Revenue. CNCS’ engagements in federal partnerships allow the
purchased by CNCS. Such interest, if any, at year-end is included in the       Trust Fund to be reimbursed for Segal AmeriCorps Education Awards
interest receivable balance.                                                   earned by members supporting activities of the partnership. The revenue
                                                                               from these partnerships is recognized as Other revenue when earned.
H. CASH EQUIVALENTS
For purposes of the statement of cash flows, CNCS considers all                N. INCOME TAXES
interest-bearing Treasury securities guaranteed by the United States           As a federal entity, CNCS is exempt from all income taxes imposed
to be cash equivalents.                                                        by any governing body, Federal, State, commonwealth, local, or
                                                                               foreign government.
I. ACCOUNTS RECEIVABLE
Accounts receivable represents amounts due to CNCS primarily related           O. USE OF ESTIMATES
to grantee audit resolution determinations. An allowance for doubtful          The preparation of financial statements in accordance with GAAP
accounts is established for reporting purposes based on past experience.       requires CNCS to make estimates and assumptions about future events.
                                                                               These estimates and assumptions affect the amounts reported in




Other Information | PART IV	                                                                                                                           94
The Corporation for National and Community Service



CNCS’ financial statements and accompanying notes. CNCS evaluates          to conform with GAAP as applicable to federal government corporations.
its estimates and assumptions on an ongoing basis using historical         Certain prior year amounts have been reclassified to conform to current
experience and other factors that it believes to be reasonable under the   year presentation and better reflect CNCS’ operations under
circumstances. Adjustments to estimates and assumptions are made           its reauthorization.
when facts and circumstances warrant. As future events and their
                                                                           Q. CONCENTRATION OF RISKS
effects cannot be determined with certainty, actual results could differ
                                                                           Congress annually considers whether to fund CNCS’ program and
from the estimates used in preparing the accompanying financial
                                                                           operational activities. Should Congress opt not to enact appropriations
statements. Significant estimates and assumptions are required as
                                                                           to fund them, CNCS would be unable to continue operations of the
part of determining the liability for service awards, grants payable,
                                                                           National Service Trust Fund once funds are exhausted for their intended
and grant advances.
                                                                           purpose. Corporation management believes the risk of such an occurrence
P. COMPARATIVE DATA                                                        is remote.
The National Trust Fund financial statements provide comparative
information for FY 2013 and 2012. For FY 2013, the Statements of
Cash Flow and Budgetary Resources were added as primary statements




Other Information | PART IV	                                                                                                                     95
The Corporation for National and Community Service



NOTE 2—Fund Balance with Treasury
U.S. Government cash is accounted for on an overall consolidated basis by the U.S. Department of Treasury. The Fund Balance with Treasury line on the
Statement of Financial Position consists of Trust Funds of $611 thousand in FY 2013 and $5.0 million in FY 2012 that are considered restricted.

Trust funds are accounts designated by law for receipts earmarked for specific purposes and for the expenditure of these receipts. Funds from the
National Service Trust may be expended for the purpose of providing an education award or student loan interest forbearance payment and are made
directly to a qualified institution (college, university, or other approved educational institution, or a lending institution holding an existing student loan)
as designated by the participant. The National Service Trust also pays awards under the President’s Freedom Scholarship, Summer of Service, and Silver
Scholar programs.




Unexpended Balances as of September 30, 2013 (dollars in thousands)

Type	                                                                             Restricted	Total

FBWT	                                                                       $	 611	                                      $	611
Investments and Related Receivables		                                                   693,165		                                  693,165
Total	                                                                      $	          693,776 	                        $	        693,776




Status of Unexpended Balances as of September 30, 2013 (dollars in thousands)

Type	                                                                             Restricted	Total

Unobligated:
  Available	                                                                $	 51,448	                                   $	51,448
  Unavailable		                                                                          50,197		                                    50,197	
Obligated not yet Disbursed		                                                           592,131		                                  592,131
Total	                                                                      $	          693,776 	                        $	        693,776




Unexpended Balances as of September 30, 2012 (dollars in thousands)

Type	                                                                             Restricted	Total

FBWT	                                                                       $	 4,951	                                    $	4,951
Investments and Related Receivables		                                                   638,565		                                  638,565
Total	                                                                      $	          643,516 	                        $	        643,516




Other Information | PART IV	                                                                                                                                 96
The Corporation for National and Community Service




Status of Unexpended Balances as of September 30, 2012 (dollars in thousands)

Type	                                                                         Restricted	Total

Unobligated:
  Available	                                                            $	 28,843	                             $	28,843
  Unavailable		                                                                         50,197		                               50,197	
Obligated not yet Disbursed		                                                          564,476		                              564,476
Total	                                                                  $	             643,516 	               $	             643,516



NOTE 3—National Service Trust Investments and Related Receivables
The composition of National Service Trust Investments and Related receivables at September 30 is as follows:


Investments and Related Receivables as of September 30 (dollars in thousands)

	                                                                                        2013	2012

Investments, Carrying Value	                                                 $	        692,243 	                    $	          637,507
Interest Receivable		                                                                      922 		                                 1,058	
Total	                                                                       $	        693,165 	                    $	          638,565




Amortized Cost and Fair Value of Investment Securities as of September 30, 2013 (dollars in thousands)

		                                                                                  Unrealized			
Securities	 Amortized Cost	                                                        Gains/(Losses)	 Fair Value

Notes	                                  $	     512,220 	                          $	        1,560 	                      $	       513,780
Bills		                                        180,023 		                                      11		                               180,034
Total	                                  $	     692,243 	                          $	        1,571 	                      $	       693,814




Amortized Cost and Fair Value of Investment Securities as of September 30, 2012 (dollars in thousands)

		                           Unrealized			
Securities	 Amortized Cost	 Gains/(Losses)	 Fair Value

Notes	                                  $	     477,115 	                          $	        3,045 	                      $	       480,160
Bills		                                        160,392 		                                          5		                            160,397
Total	                                  $	     637,507 	                          $	        3,050 	                      $	       640,557




Other Information | PART IV	                                                                                                                97
The Corporation for National and Community Service



At September 30, 2013, the notes held at year-end had an interest rate             Since fiscal 2003, CNCS has set aside in reserve a portion of the funds in
range of 0.250 perent to 4.25 percent and an outstanding maturity period           the National Service Trust for use in the event that its estimates used to
of approximately seven days to three years. The bills held at year-end had         calculate obligational amounts for education awards prove to be too low.
an interest rate range of 0.000 percent to 0.175 percent and were all due          This reserve was originally required by the Strengthen AmeriCorps Program
to mature within 364 days. The par values of these bills range from                Act, and is now required by section 149(b) of the National and Community
$.2 million to $33.0 million. The fair value of the bills and notes is based       Service Act (42 U.S.C. 12606(b)). As of September 30, 2013, $50.2 million
on bid and ask prices quoted by the Treasury as of September 30, 2013              of CNCS’ investment account has been set aside for this reserve.
and 2012.


NOTE 3—Trust Investments and Related Receivables—Continued
Investments held at September 30 mature according to the following schedule:


Maturation of Securities Held as of September 30 (dollars in thousands)

	                                                                 2013	2012

	                                              Amortized			                                                       Amortized
Held-to-Maturity Securities	                     Cost		   Fair Value	                                               Cost		                   Fair Value

Due in 1 year or less	                       $	      441,185 	             $	       441,710 	                $	      327,537 	         $	         327,780
Due after 1 year up to 5 years		                     251,058 	                 	    252,104 		                       309,970 		                   312,777
Total	                                       $	692,243	                   $	 693,814	                        $	637,507	                $	 640,557




NOTE 4 – Accounts Receivables, Net

Accounts Receivable as of September 30 (dollars in thousands)

		                                                                                                      Trust Fund	                          Total

2013
Accounts receivable			                                                              	                  $	         281	                  $	       281
Less: allowance for loss on receivables					                                                                      (47)		                         (47)
Accounts Receivable, Net			                                                         	                  $	         234 	                 $	       234 	


2012
Accounts receivable			                                                              	                  $	         289	                  $	       289
Less: allowance for loss on receivables					                                                                      (38)		                         (38)
Accounts Receivable, Net			                                                         	                  $	         251	                  $	       251	




Other Information | PART IV	                                                                                                                                98
The Corporation for National and Community Service



NOTE 5—Trust Service Award Liability                                        Individuals who successfully complete terms of service in AmeriCorps
GAAP requires the recording of a liability, which is a point in time        programs earn education awards, which can be used to make payments
estimate, for the unpaid earned and expected-to-be-earned education         on qualified student loans or for educational expenses at qualified
award and interest forbearance costs that are likely to be paid. GAAP       educational institutions. The awards, which are available to use for a
estimates are for members who have already completed at least 15            period of up to seven years after the benefit has been earned, are paid
percent of the minimum service requirement and who, therefore, have         from the National Service Trust. The National Service Trust also pays
served enough hours to qualify for at least a partial education award.      forbearance interest on qualified student loans during the period members
                                                                            perform community service, as well as awards under the Presidential
The estimate of the Service Award Liability under GAAP includes factors     Freedom Scholarship Program. The award liability components related to
that take into account the effect of members who enroll but do not earn     education awards and interest forbearance have been adjusted, based
an award and members who earn an award but do not use it within the         on historical experience, to reflect the fact that some eligible participants
period of availability. CNCS estimates that up to 87 percent of members     may not use these benefits. The Service Award was composed of the
earning an award will eventually use it.                                    following as of September 30:


Service Award Liability as of September 30 (dollars in thousands)

	                                                                                 2013	2012

Education awards	                                                           $	 2,301,708	                               $	    2,109,437
Interest forbearance		                                                             79,604		                                      72,256
President’s Freedom Scholarship Program		                                          22,527 		                                     22,527
Total estimated service award liability		                                        2,403,839 		
                                                                                            2,204,220
Less: cumulative awards paid		                                                   1,939,565 		                                 1,757,029
Total	                                                                      $	    464,274 	                             $	      447,191 	


Since the Corporation’s inception in 1994, AmeriCorps members have          discontinued in fiscal 2007; however, because students have up to seven
earned over $2.7 billion in education awards. The Corporation has made      years to use the scholarship, some payments will continue to be made
$1.9 billion in payments to educational institutions and student loan       through 2014. As of October 1, 2009, the National Service Trust is also
holders on these awards. In addition, the Corporation has made $72.0        available to pay Summer of Service and Silver Scholar educational awards.
million in interest forbearance payments since the program’s inception.     However, the Silver Scholar program was not funded and no current
Approximately $271.9 million in education awards earned had expired         liability was accrued for those educational awards. The Summer of Service
without being used as of September 30, 2013. The Trust obligation           program was only funded in FY 2010.
formula has been adjusted to reflect these expired awards. Payments for
President’s Freedom Scholarships have totaled $21.7 million.                NOTE 6—Net Positions
                                                                            Net position consists of cumulative results of operations. The cumulative
The net Service Award Liability as of September 30, 2013 increased          result of operations for the Trust Fund was $229.7 million in FY 2013 and
by approximately $17.1 million from the net Service Award Liability as      $196.6 million in FY 2012, respectively.
of September 30, 2012. This change was largely due to new member
enrollments related to FEMA Corps and an increase in the number of          CNCS is required to report information regarding its financial position
members still serving during the year. Past CNCS appropriations made        according to three classes of net assets (net position): unrestricted,
amounts from the National Service Trust available for $1,000 scholarships   temporarily restricted and permanently restricted. CNCS has no
for high school students known as Presidential Freedom Scholarships. To     permanently restricted assets. The financial of position of the Trust Fund
fund each scholarship, a local community or corporate source matched        in the amounts of $229.7 million in FY 2013 and $196.6 million in FY 2012
the $500 portion of the scholarship provided by CNCS. The program was       is temporarily restricted.




Other Information | PART IV	                                                                                                                          99
The Corporation for National and Community Service



NOTE 7—Appropriations Received by the National                               NOTE 8—Expenses
Service Trust                                                                Using an appropriate cost accounting methodology, CNCS’ expenses have
For fiscal year 2013, the National Service Trust received $200.7 million     been allocated among its major programs, at the sub-program level.
under the Continuing Appropriations Act, 2013 (Public Law 112-175). For      Costs for each sub-program are reported on separately:
fiscal year 2012, the National Service Trust received $207.6 million under
                                                                             The National Service Award Expense component consists of CNCS’
the Consolidated Appropriations Act. The acts also authorized CNCS to
                                                                             estimated expense for education awards based on the increase in its
transfer additional amounts from subtitle C program funds to the National
                                                                             service award liability during the year and interest forbearance costs on
Service Trust to support the activities of national service participants.
                                                                             qualified student loans during the period members perform community
CNCS transferred $22.8 million and $4.4 million to the Trust under this
                                                                             service. No indirect costs have been allocated to the National Service
provision in fiscal year 2013 and 2012, respectively.
                                                                             Award expense component.



Expenses by Sub-Program for the Period Ended September 30, 2013 (dollars in thousands)

		 AmeriCorps
Type	 State/National	NCCC	                                                                              VISTA	                     Total

Service award expense		                          171,188		                   8,484		                      19,896		                  199,568
Total Expenses	                          $	      171,188 	          $	       8,484	                $	     19,896	            $	     199,568




Expenses by Sub-Program for the Period Ended September 30, 2012 (dollars in thousands)

		 AmeriCorps
Type	 State/National	NCCC	                                                                              VISTA	                     Total

Service award expense		                          182,786		                   8,609		                      27,028		                  218,423
Total Expenses	                          $	      182,786 	          $	       8,609	                $	     27,028	            $	     218,423




NOTE 9—Subsequent Events                                                     NOTE 11—Apportionment Categories of Incurred
CNCS has evaluated subsequent events through December 16, 2013,              Obligations
which is the date these financial statements were available to be issued.    An apportionment is a distribution by OMB of amounts available for
As a consequence of its evaluation, CNCS has determined that no              obligation. OMB apportions Trust funds on an annual basis. Obligations
subsequent events need to be recognized or disclosed.                        incurred in the Trust Fund during FY 2013 and 2012 were $210.1 and
                                                                             $203.4 million, respectively.
NOTE 10—Undelivered Orders at Fiscal Year-End
Trust Fund undelivered orders at September 30, 2013 and 2012 were
$592.1 and $564.5 million, respectively.




Other Information | PART IV	                                                                                                                        100
                      APPENDIX
______________________________________________________
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
             RESPONSE TO DRAFT REPORT
The Corporation for National and Community Service




Memorandium

DATE: December 16, 2013
TO: Deborah Jeffrey, Inspector General
FROM: David Rebich, Chief Financial Officer
SUBJECT: Draft Report on the FY 2013 National Service Trust Fund Financial Statements




Thank you for the opportunity to respond to the draft report on the results of your audit of the FY 2013 National Service Trust Fund financial statements.
I am pleased that we can report Corporation for National and Community Service (CNCS) maintained its unmodified opinion on the National Service Trust
Fund financial statements.
CNCS revised the National Service Trust Fund reporting framework during FY 2013 principle financial statements and accompanying note disclosures to
conform with generally accepted accounting principles as required by the Government Corporation Control Act (Act) and Executive Order 13331, National
and Community Service Programs.




                                                      1201 New York Avenue, NW • Washington, DC 20525
                                                           202-606-5000 • www.nationalservice.org
                                                     Senior Corps • AmeriCorps • Learn and Serve America




Independent Auditor’s Report | PART III	                                                                                                               80
